                             CLOSEOUT FOR M90110044

        The subject of this case is &- _ _            & formerly an assistant professor in
the Department of Computer Science and Engineering at the
(the institution), in        The institution conducted an inquiryV"into
                                                                      an allegation that the
subject had plagiarized into a grant proposal that he submitted to NSF The institution
informed the subject that he could either submit the matter to a faculty committee, resign,
or acknowledge unauthorized use of material The subject acknowledged unauthorized
use of material Thereafter, the subject was denied tenure and left the institution

        After learning of the the inquiry, OIG conducted its own investigation into the
allegation. OIG's investigation report is based on both the institution's inquiry and OIG's
investigation. OIG's investigation report, the Deputy Director's "Notice of Msconduct in
Science Determination and Proposed Debarment of [the subject]" o f 7 August 1995, and
the Deputy Director's 18 September 1995 letter regarding debarment, constitute the
closeout for this case.

cc:    Assistant Counsel to the Inspector General, Deputy AIG-Oversight, AIG-
Oversight, IG
                   CONFIDENTIAL


   NSF OIG INVESTIGATION
                      REPORT

                OIG Case Number M90110044




This document is lent to you FOR OFFICIAL USE ONLY. It remains .the
property of the Office of Inspector General. It may not be reproduced. It
may be disclosed outside NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U.S.C. $5 552, 552a.
        REPORT OF INVESTIGATION INTO AN ALLEGATION OF
           MISCONDUCT IN SCIENCE AND ENGINEERING



       This case involves Dr. Alade 0. Tokuta (the subject), formerly an assistant professor in
the Department of Computer Science and Engineering (the Department) at the University of
South Florida (the institution), in Tampa. We have concluded that the subject plagiarized
extensively into three grant proposals he submitted to NSF. This conclusion is based on an
inquiry performed by the subject's institution and OIG's investigation. OIG recommends that
NSF fmd that the subject committed misconduct in science, debar him from receiving
government grants or awards for one year, and inform the subject's new institution that the
subject has been debarred. OIG also recommends that for one year following debarment, when
the subject submits proposals to NSF as a principal or co-principal investigator, NSF should
require the subject to submit certif~cationsto OIG that to the best of his knowledge his proposals
are free of misconduct in science. During that year, NSF should also require the subject to
ensure that his department chairperson submits an assurance to OIG that, to the best of that
person's knowledge, the subject's proposal does not contain any plagiarized material. Finally,
NSF should prohibit the subject from participating as an NSF reviewer, advisor, or consultant
during the one-year debarment period.

                                    INTRODUCTION
       After submittin a continuation proposal to the Research Experie ce for Under duates
(REV program, Dr. e                     e source PI), of the University-the
second institution), receiv comments from a reviewer noting the "lack of coordhation between
the proposal and one received from [the subject]" and "the similarity of the wording of the
proposals. "' NSF had received both the source PI'S continuation proposal and a proposal by the
subject on the same date, and they were considered by the same review panel.




    1
   The reviewer also noted the "lack of communication" between the two groups in his
comments on the subject's proposal.
    2
     See Tab B. The material common to the proposals from the source PI and those from the
subject PI is marked on all attached proposals.

    'See Tab A.
                                                  This was the third of three similar proposals
submitted to NSF by the subject in 1989.'

                            THE INSTITUTION'S INOUIRY

        According to the institution's inquiry report,6 the source PI relayed the reviewer's
comments about the existence of a similar proposal to the source co-PI, who is located at the
institution, in the same department as the subject. The source co-PI was unaware of the
subject's proposal at that time, and was upset to learn that the subject had apparently copied
parts of the source PI'S proposal without permission of its authors.' Institution officials were
notified of the matter shortly thereafter. According to the institution, the Associate Dean
compared the source proposal8with the subject's                           the Research Careers
                chola6 ( ~ C M Sprogram,
                                  )        entitled "Research Careers for Minority Scholars in
                                        he subject's first prop~sal).~
                                                                     The Associate Dean noted
similar or identical passages in the two proposals. Thereafter, the Associate Dean interviewed
the subject twice in person and twice on the telephone. According to the Associate Dean's
memorandum,

       At our fmt meeting [the subject] assured me he had written [the subject's first
       proposal] and that he had never seen [the source proposal]. He informed me that
       he had gotten some of the ideas for [the subject's first proposal] over the



on this proposal. See Tab E.

    'see Tabs C, D, and E. See also Tab F, which is a chart summarizing the relevant
proposals.

    'see Tab G for the institution's record of events.
                       .?
    'see Tab G.
    'See Tab G. The University o-n
                                 iquriy                     report mistakenly indicates that the
source PI became aware of a similar proposal by the subject when he received reviews of
             March, 1990. However NSF records show that the reviek that pointed out the
similar proposals was of                   sa-                received by NSF on October 11,
1988; reviews o     f    e   r     e sent to the source PI on Feb. 23, 1989, before any of the
subject's proposals were submitted.

    'See Tab C. The co-PI on this proposal is Dr. r                       .h                  e
subject's department chairperson) is listed as co-PI on the =page    but not on the cover sheet.
      telephone from a NSF representative. . . . [Hle stated that he took notes while
      talking on the telephone and that he had extremely good memory recall. . . . W e
      wasn't sure who [the NSF representative] was .'. . and he was unable to find his
      notes. lo

At a meeting with the Associate Dean approximately two weeks later, the subject continued to
deny that he had copied from the source PI'S proposal.

       According to the institution, the subject was provided with the Associate Dean's
memorandum, and a copy of the institution's Policy on Misconduct in Research." The Dean
explained to the subject that the question of plagiarism would have to be resolved before he
could respond to the subject's tenure request. The Dean notified the subject of the following
options in regard to the alleged plagiarism: a) submission of the issue to a review committee;
b) voluntary resignation; c) acknowledgment of unauthorized use of material.I2

      The subject responded to the Dean's options with a memorandum acknowledging
unauthorized use of material. The subject stated:

       This memorandum is intended to reflect option C titled: Acknowledgement of
       unauthorized use of material, and to that end, avowing that portions of the
       material have been used. During the course of the preparation of the document,
       I had on occasions solicited counsel, suggestions and ideas from a governmental
       agency to effect an overall package. I had no notion nor reason to think the
       counsel or ideas was a gross violation of anything or based on impropriety. . . .
       This in perspective was an error as I should have been more careful about the use
       of any material. . . . I hope those affected by this action will find it possible to
       forgive the error.13

       To assess the subject's claim that an NSF representative provided verbatim text from
another proposal over the telephone, the Associate Dean contacted several NSF officials. These
included two Program mcers, both of whom denied the subject's claim that one of them had
dictated the material he had incorpomted into his proposal. In accordance with NSF policy, one
of the NSF officials at this point notified OIG of the misconduct allegation.


    "See Tab I.

    "See Tab G.
    12SeeTab J.

    13SeeTab K.
        Thereafter the Dean informed the subject that his memorandum acknowledging
unauthorized use of material would be placed in his personnel file. The Dean's memorandum
stated:

       Your memo acknowledges that you did make unauthorized and unattributed use
       of text from an NSF proposal that had been authored by [the source co-PT] and
       that you used this text in a subsequent NSF proposal authored by you. . . .

              *Receipt of your memo is acknowledged. A copy of your memo
              will be placed in your permanent personnel fde along with this
              acknowledgment.

              *A copy of the memo from [the Associate Dean] will also be
              placed in your permanent personnel file.

       Note that these documents will be added to your file for tenure consideration.
       ...  M o u may, if you wish, attach a concise response to [this] within 5 days after
       it has been transmitted to you.14

        Although the subject apparently spoke to the Dean about the matter, he did not respond
in writing until about seven weeks later. The subject requested that his memorandum reflecting
option (c) be withdrawn from his personnel fde. The subject stated:

       I was too &ed      and had no energy [to respond to the Dean's memorandum]
       . . . . The conclusions of the chief administrative officer of the college can be
       very overpowering. . . . stated.]I was withdrawing the memorandum that you
       had responded to and that has not changed.''

       The subject further indicated that he had not written his memorandum with the
expectation that it would be construed as an admission of plagiarism:
                       6
       I told you that if indeed it would be option [c] that you should not construe it to
       be a mea culpa. Based on this was a memorandum that indicated that an error
       was made for which no one else but I can take responsibility and hence tender an
       apology. l6


    14SeeTab L.

    ''see Tab M.
    "See Tab M.
The subject also suggested that the allegation against him was part of a personal vendetta:

         [Tlhis episode . . . is nothing more than a power play. Indeed an arrogance of
         power where a just recent senior member of the faculty has decided that he would
         "straighten out" another colleague who does not tow his line [all sic]. . . . I am
         a team player but at the same time I have my own mind and at this stage of my
         life no one . . . will dictate to me . . . . I have been told that this still indeed is
         the South but this is not one 'whipping boy' unfortunately. Heavens help us all
         if that day would come when a member of a faculty is empowered to get rid of
         other members he does not like. First it's a Chairman, next a faculty; it may be
         a College administrator next. l7

The Dean denied the subject's request to withdraw the memorandum. In subsequent memoranda
to the Dean, the subject continued to insist that he had withdrawn his earlier memorandum. The
Dean denied all requests to withdraw the subject's memorandum, but upon the subject's request,
included all relevant memoranda in the file.''

        This apparently ended the institution's inquiry. Thereafter, the subject was denied tenure
and left the institution.lg The institution had no information regarding any future employment
of the subject.

                OIG'S REVIEW OF THE INSTITUTION'S INQUIRY
       In response to OIG's request, the institution provided a copy of its inquiry report, which
consisted of a brief summary of the events detailed above.20 A letter from the institution's Vice
President described the institution's resolution of the matter as follows:

         [Tlhis matter was resolved in November, 1990, by [the subject's]
         acknowledgment of unauthorized use of material from a proposal previously
         submitted to NSF. Thus the matter was resolved at the "initial inquiry" stage
         under [the instidion's] policy, and the records regarding the matter were added
         to [the subject's] permanent personnel file at [the institution]. [The subject] is



    "see Tab M.
    18
     According to the Dean, five memoranda were included in the subject's folder.
    19SeeTab H.
    20SeeTab G.
       now in his final year of employment as a faculty member at this institution and
       his last day of [institutional.] employment will be May 5, 1992.21

       According to the institution's misconduct'policy, an allegation can be resolved after the
inquiry only if the matter is dismissed because it has no substance. Otherwise, the institution's
policy, in accordance with NSF's regulation,22requires that allegations be investigated to
determine whether misconduct had occurred. Nonetheless, the institution apparently made a
fmding of misconduct after only an inquiry." The Vice President explained the institution's         .
handling of the case:

       [Tlhe [institution's] policy was undergoing development and was not in effect.
       Accordingly, the situation was handled as a conduct matter by the College of
       Engineering, of which [the subject] is a member, in accordance with normal
       University procedures. As [the subject] admitted to unauthorized use of material
       from a proposal previously submitted to NSF, further investigation was not
       required. This admission was placed in his permanent personnel file."

        Because theinstitution conducted only an inquiry, based            on a partial admission
which the subject attempted to withdraw, the institution did not determine either how the subject
obtained the material, or the extent of the subject's culpability. To obtain more information,
OIG obtained all documents related to the matter from the institution. The above summary of
the institution's inquiry is based on the records that were obtained.

                                OIG'S ][NVESTIGATION
       Because of unanswered questions about this case, OIG opened its own investigation. OIG
determined that material from the source proposal had been incorporated into three NSF
proposals: two RCMS proposals and the REU proposal. The second RCMS proposal is a


    2 1 ~ eTab
            e H.       F


     2 2 ~ e eCIF.R. 5 689.3. According to NSF regulations, "If an institution wishes NSF to
defer independent inquiry or investigation, NSF expects it to [ilnform NSF immediately if an
initial inquiry supports a formal investigation." (45 C.F.R.5 689.3(b)(l).) The institution did
not as required promptly notify NSF of the alleged misconduct. In this case, NSF learned of
the allegation only inadvertently, even though the frndmgs of the initial inquiry warranted an
investigation.

    "See Tab H.
    "See Tab N.
slightly revised version of the subject's first RCMS proposal, which he withdrew from
consideration." The two nearly identical RCMS proposals contain the same copied material,
which comprises all or part of 69 lines. Most of the material copied into the RCMS proposals
had also been incorporated into the REU proposal, plus some additional material from the source
proposal. AU or part of 106 lines of the subject's REU proposal contain copied material, of
which 27 lines contain copied material not incorporated into the RCMS proposal^.'^ The
copied material is marked on the attached proposals.

         To determine how the subject may have obtained the source proposal, OIG spoke to the
source proposal co-PI in the subject's department, and to the Vice President for Research at the
institution. The source proposal co-PI said that the subject may have obtained the proposal
electronically, from the departmental computer system, or from one of three paper copies
available in different institutional offices. He could not provide any more defintive information,
but he thought it very unlikely that the subject got the proposal from any of the other co-PIS,
who were located at other universities. The source proposal co-PI declined further involvement
with OIG's investigation, stating that the subject is unstable and has made threats of physical
violence against institutional administrators. Documents sent to OIG corroborated the co-PI'S
perception.



                                                              is entitled "Research Careers for
                                                              The co-PI on this proposal is Dr.
                                                               the title page but not on the cover


     '%e remaining 79 lines are roughly equivalent to the 69 lines in the RCMS proposals.
However, there are small changes in the wording and order of the material, explaining the
difference in the total number of copied lines. The REU proposal incorporates material from
the RCMS proposals not copied from the source proposal.
                        F
                      stitution] professor banned from school grounds: Professor accused of
threatening
    27see7 e&m dministrator after f f i g charges of racism, " [Institution Newspaper], August
2, 1992, at 1 (Tab 0). Also, institutional police reports described an incident following
impoundment of the subject's vehicle. According to the report, the subject "allegedly without
provocation punched one of the employees . , . [andJ . . . apparently became violent again as
evidenced by his attempt at vehicular battery on the employees. This further escalated until the
police arrested [the subject]. . . . [The subject] yelled to his young (approximately 7 years old)
son to go to the car and get the gun under the seat so that he could kill these people." (Tab 0).
The subject disputes the veracity of these reports. See Tab R. OIG does not contend that the
information is relevant to a f~ndingof plagiarism, but rather that it shows the difficulty of
conducting an investigation regarding this subject.
        OIG attempted to obtain a written response from the subject regarding the allegation of
plagiarism. OIG sent the subject annotated copies of his proposal and the source proposal,
showing the-copied material, and requested an explanation from the subject.28 OIG received
no reply from the subject. OIG sent two follow-up letters explaining that it would be forced to
conclude its investigation of the matter without hearing his side of the story unless he replied.29
OIG still received no reply from the subject. Repeated phone calls were not answered, and the
subject did not reply to messages left on his answering machine.

       OIG also contacted the NSF Program Off~cersthat the subject claimed had read to him
the material he had incorporated into his proposal. As previously reported by the institution,
both Program Officers denied having read the proposal to the subject.

           At the close of this investigation, OIG found that the subject was no longer living at his
 residence near the institution. Rather. OIG determined that the subiect had recentlv relocated
 and is now employed as an ~ssociateProfessor in the D
-niversity                      (the subject's new institution) in
 delivered a draft of our investigation report to him on 8 September, and requested his comments
 by 10 October 1994.

       Initially, we received no response from the subject. When we contacted him on 11
October to determine whether he intended to submit comments, he told us that his attorney was
handling the matter; when we contacted the attorney named by the subject, she told us that she
was not representing him. However, in response to communications from the subject and a
different attorney representing him, we extended the commenting period two more times. At
the end of the second extension, we received, through his attorney, the subject's response to
OIG' s investigation report.30




    28SeeTab P. The subject denies receiving the letter. See Tab R. Federal Express verified
that the letter, for which the signature requirement had been waived, was delivered to the
subject's address. See Tab P.

    2 9 ~ eTab
            e Q. The subject denies receiving the letters. The subject claims that the printed
name obtained by Federal Express, is not his signature. See Tab R. Fedeml Express informed
OIG that the subject had a blanket waiver of the signature requirement on file, so that the
subject's actual signature was never required for delivery. This defeated OIG's attempt to verify
delivery by obtaining the subject's signature.

     30SeeTab R.
       The Subject's Response to OIG's Invest@tion Report

              Material not copied, or if copied, did not require attribution

        The subject's first defense to the allegation of plagiarism was that some of the phrases
marked as copied in OIG's annotated versions of the proposals are commonly used phrases
which cannot easily be expressed in other ways, or boilerplate language so commonly used that
it requires no attribution. This defense focussed primarily on portions of the proposal that did
not appear to have been copied word for word.31

       Moreover, the subject pointed out that certain portions of the proposal, particularly the
description of student research projects in the subject's REU proposal, bear no similarity to the
source proposal. The subject admitted, however, that in other portions of the proposal

       [several paragraphs] are strikingly similar and because of the uninterrupted flow of the
       same words cannot be dealt with as lightly as the preceding items have been handled.
       . . . m h e marked similarities in ideas in all of [several other] paragmph[s] do appear
       quite similar to the source application which was provided and could raise some question
       as to their

              The SOUFC~of the copied m a t e s Students may have intmduced it

       The subject claimed that, in developing his proposal, he followed the suggestion of his
department chairperson, to model his proposal after an NSF proposal by Dr. -(the
professor), of the in~titution.~~
                               By contrast, the subject stated through his attorney, that

       m e was not aware of the [source] proposal     . . . and that he never at any time saw a
       copy of that proposal.

The subject claimed that, in preparing his proposal he
                        P
       enlisted the aid and assistance of some graduate students at USF who were in his
       departgent. Some of these students were also students of [the source proposal co-PI].
       . . . Some students were enlisted to aid and assist . . . in writing his proposal. It is
       entirely possible that because of the crossover between the students [of the source


    31SeeTab R.
    3 2 ~ eTab
            e R.

    33SeeTab R.
       proposal co-PI and the subject], some portions of [the source] proposal began to appear
       in [the subject's] proposal.34

       Nonetheless, the subject did not unequivocally bl'ame the students for copying the source
material:

       [The subject] indicated . . .that he did edit his own proposal, however, his editing was
       at times of the work of other individuals. . . . He is likewise not attempting to state that
       it was his students fault and that he is therefore not re~ponsible.~'

However, the subject de6ied that he had previously admitted responsibility for copying. Rather,
he claimed that

       He admitted using things which may have been copied. He did not admit that he
       personally copied anything. 36

              If the material was copied, it was without scientific substance, and it was to
bendit students, not the subjed

        The subject claimed that those portions which appear to have been copied were without
scientific substance and thus were unimportant or of no concern:

       Nothing in the allegedly plagiarized portions . . . contains anydug of scientific substance
       or thought, it was totally related to academic procedures and classifications. . . . No
       scientific ideas, theories or principles were ever appropriated or even attempted to be
       appropriated . . . .37

        As an additional defense, the subject claimed that he wrote the proposals not for his own
benefit, but for the benefit of others:




    "See Tab R.

    3 S ~ eTab
            e R.

    36SeeTab R.

    37SeeTab R.
       It was to benefit minority students and the school in general. . . . m e subject] would
       not have been able to exercise any control over any of the funds disbursed; nor would
       he benefit academically or in any other way from the granting of the pr~posal.~'

The subject suggested that some thought that "this incident has been blown way out of
proportion to the seriousness of the alleged offense. "39

       Clarification of the Subject's Response

       Because the subject's response implied that he did not copy the material from the source
proposal, but that students were responsible, OIG requested clarification on this point. OIG
asked the subject to state clearly whether the students copied the material, and if so, to identify
them. The subject's attorney replied as follows:

       . . . I, myself, raised the issue of possible student use of the material in question.
                                                                                            This
       thought had not occurred to [the subject]. When I queried him further, [the subject]
       stated to me that while such a theory was possible, he was unable to prove or substantiate
             .
       it. . . [The subject] cannot and will not state unequivocally that the alleged acts of
       plagiarism were the work or the result of any students working for him.

       [The subject] did provide me with the names of the students who worked on the project
       with him, however he gave me instructions not to provide their names to [OIG]. . . .
       [The subject] does not want any of them to have any type of black marks upon their
       careers from the NSF."'

OIG'S ANALYSIS

        This analysis is based on the institution's inquiry, information OIG obtained from the
institution, information in NSF records, and the subject's response to OIG's investigation report.
The subject submitted a number of similar proposals to NSF, and the source PI'S group
submitted both initial md continuation proposals for the same project. Thus, OIG sought to
determine which subject proposals contained copied material, the extent of the copying, which




    38SeeTab R.
    39SeeTab R.

    40SeeTab S.
one of the source PI'S proposals was the source proposal, and the overall sequence of events."'

Identity of Source Proposal and Subject Broposals Containing Copied Material

        Examination of the subject's NSF proposals showed that the three proposals submitted
in 1989 contained similar material which appeared to have been copied from one of the source
PI'S proposals. The common material in the three subject proposals is more similar to the initial
proposal than to the continuation proposal.42 Moreover, the timing of the proposal submissions
shows that the initial proposal must be the source proposal; the continuation proposal was
received by NSF on the same date as the subject's third proposal, well after the subject's first
and second proposals had been received. The substantial similarities between the initial and
continuation proposals explain how the plagiarism was detected in the review of the continuation
proposal, even though it was not actually the source proposal.

The Subject Obtained the Source Material and Copied h m the Source Proposal

        Many of the statements made by the subject in the course of the institution's inquiry
strongly imply that the subject obtained the source material and copied from it into his proposals.
In his response to OIG's investigation report, the subject denied that he had admitted
responsibility for copying to the institution. Yet, during the inquiry, the subject conceded to the
Associate Dean that he had written the first proposal of the three proposals containing copied
material. The subject never suggested that any of his co-PIS bear any responsibility for this
matter. In a letter to the institution, he acknowledged unauthorized use of material, though he
later attempted to withdraw that statement.43 The subject also admitted to the institution that
he had obtained the source material, although the means by which he claimed to have obtained
it, from NSF Program Officers who read it to him over the telephone, are implausible. Finally,
the subject apologized to the source proposal co-PI who is a faculty member in his department.
Although the subject now denies making such an apology, it can be found in a signed
memorandum to the Dean of the in~titution.~~       This apology, along with the other statements
by the subject, strongly supports an inference of the subject's re~ponsibility.~'
                         F




    41SeeTab F for summary of information on source and subject proposals.
    42SeeTabs A-E.
    43
         See notes 13-15 and accompanying text.
    ""See Tab K.
    4 5 ~ enote
            e 46 and accompanying text.
                                                  12
        Although the subject claimed to the institution that he obtained the source material in a
telephone conversation with an NSF Program Officer, his story is not credible. Although NSF
Program Officers routinely provide telephone advice on proposal preparation, they do not read
from proposals. When asked to do so by the institution,-thesubject could n ~produce
                                                                                t        the notes
he claimed he took during the telephone conversation, and initially claimed not to remember
whom he had talked to. Later, the subject claimed that he had talked to one of two Program
Officers. According to a diary note in the proposal jacket of the subject's first allegedly
plagiarized proposal, one Program Officer had a telephone conversation with the subject in
which he advised the subject of deficiencies in his proposal, and suggested that he revise and
resubmit it. However, the proposal contains copied material, so this conversation took place
after the copying occurred and therefore the subject could not have learned about the source
material in this conversation. The Program Officer denies discussing the source proposal with
the subject. Also, the other Program Officer denies reading a proposal to anyone over the
telephone. It is extremely unlikely that either Program Officer could have provided the
information, because neither had any apparent connection to the source proposal. Neither was
a member of the REU Coordinating Team that handled review of the source proposal. It is not
believable that the subject acquired the large amount of nearly identical material in a telephone
conversation with an NSF representative.

        The subject opined in his response to OIG's investigation report that some of the material
marked by OIG as copied was not copied, or even if copied, did not require attribution. As
examples, he points to commonly used phrases or boilerplate language describing institutional
or departmental features. Where OIG observed short passages of novel and identical material
intermixed, OIG marked only the material identical to that in the source proposal. OIG finds
that the co-existence of novel material with copied material in a single document does not refute
the inference of copying of the identical material. Rather, the close proximity of long passages
that are word-for-word identical to the purported source material, to short passages that although
identical might not otherwise be considered plagiarized, supports the conclusion that the short
passages were also copied from the source document. It need not be determined, however,
whether each short passage was plagiarized, because the subject concedes the existence of long,
word-for-word identicxkpassages which carry a strong inference of copying. Nor can the subject
legitimately claim that such passages, copied from a confidential and unpublished proposal, do
not require attribution.

         The subject, through his attorney, now claims that he modeled his proposal after one by
a professor at his institution (not the source co-PI). OIG examined the only proposal submitted
by the professor identified by the subject prior to the time the subject submitted his, and found
that it addresses primarily minority participation in secondary and postsecondary education, and
bears no similarity to the subject's proposals. The subject's proposals are, by contrast, very
similar to the source proposal. There is no evidence whatever to support the subject's claim that
he modeled his proposal on the one by the professor.
        The subject also claims that unnamed graduate students, including the source co-PI'S
students, assisted the subject in writing his proposal, and may have incorporated the questioned
material. Yet, when questioned further, the subject declined to name the students, and did not
state that the students were responsible for the plagiarism. Moreover, when we asked for
evidence, the subject's attorney stated that it was not the subject's idea that students may have
been responsible for copying the material. Rather, the attorney raised this possibility. Thus,
there is no evidence whatever that students were responsible for the incorporation of identical
material into the subject's proposals.

       Instead, OIG concludes that the subject implicitly acknowledged,obtainingthe material
from the source proposal co-PI in his department, when he apologized to him:

       I am most sincerely sorry and hope that this apology can be acceptable to those
       who may have been hurt by all of this. To [the source proposal co-PI] especially,
       I offer my sincere regrets.46

        OIG spoke to the source proposal co-PI in the subject's department to ask whether the
subject might have obtained the material from him, and if so, hok. : Them-PIsaid that he did
not recall giving out any copies of the source proposal, but he could not be sure since it was so
long ago. However, he said that at least three copies of the source proposal were readily
available to the subject -one in the departmental office, one in the office of the Associate Dean
of Engineering, and one in the Office of Sponsored Research. The source proposal was also
accessible on the departmental computer. This evidence, plus the subject's apology to the source
proposal co-PI, indicates that the subject somehow obtained the source material from copies
traceable to the source co-PI in his department, though the exact means by which he obtained
it are unknown. In our view, a preponderance of the evidence shows that the subject was solely
responsible for copying, without attribution, the source material into all three proposals.

The Subject's Use of the Copied Material

        The subject incozporated material from the source REU project into two RCMS proposals
and an REU proposal. In comparing the source REU proposal and the two RCMS proposals,
it is apparent that the subject adopted the operational plans of the source REU proposal, while
deleting the specific research project proposed for it. For the RCMS proposals, the subject used
part of the source introduction by subdividing and incorporating parts of it into different
sections. The subject's "General" and "Introduction" sections use only a few sentences or
phrases from the source Introduction, while other parts of the source proposal Introduction were
split off and incorporated into the subject's sections on the "Plan of Operation," "Early Research



    46SeeTab K.
Experience,," and "Commitment to the Program. " The subject also incorporated material from
the source proposal's sections on "Selection of Participants, " "Student Activities, " "Project
Management, " and "Student Participation and Follow-Through," into identically titled sections
in his proposals. In addition, each section in the subject's proposals contained material not
originating from the source proposal. In using the source material, the subject reordered it and
integrated it into segments of his proposals that deal with the minority programs, facilities,
course work, faculty, research, and students at the participating institutions. Blocks of
incorporated material in the subject's RCMS proposals are between 3 and 19 lines long. The
blocks of copied material are in some instances quite close to the source material, but in all
cases contain at least a few word changes, some apparently stylistic and others introducing
material specific to the subject's institution. Thus, the subject tailored the copied material to suit
the subject's academic environment and needs.

        The REU proposal exhibits the same interweaving of source and subject blocks as the
RCMS proposals, but, presumably because it is also an REU proposal, it is somewhat closer in
arrangement to the source proposal. Material from the source "Introduction" is incorporated into
the "General," "Introduction," and "Early Research Experience" sections of the subject's REU
proposal. As the RCMS proposals, the subject used material from the source proposal's
sections on "Selection of Participants," "Student Activities," "Project Management, " and
"Student Participation and Follow-Through" in identically titled sections. In addition, the
subject's REU proposal contains additional source material in its "Schedule" section that was not
used in the RCMS proposals. The subject's REU proposal contains different "Undergraduate
Research Projects" from those described in the source proposal. The subject appears to have
tailored the material in the REU proposal so that it differs somewhat from both the source and
RCMS proposals.

OIG'S CONCLUSION REGARDING MISCONDUCT IN SCIENCE

        For NSF to make a finding of plagiarism, the preponderance of the evidence must show
that the subject committed the bad act (copying without attribution or offset) with a culpable state
of mind (such as willfus knowing, or grossly negligent) (45 C.F.R. 8 689.2(d)).

        Commission of the Act

        Three of the subject's proposals contain copied material; all or part of approximately 69
lines in two proposals, and 106 lines in the third proposal. The copied material is not offset or
attributed to the source authors, and the subject did not have permission to copy from the source
proposal. The copied material is close but not identical to the source material, having been
subdivided, reordered, and otherwise tailored to the objectives of each proposal. The subject
claimed that he did not copy from the source proposal, but rather used ideas that were given to
him by NSF representatives over the telephone. This explanation is implausible. NSF
representatives denied reading the material over the telephone, and the quantity of identical
material is too great to have been acquired orally. Alternatively, the subject, through his
attorney, claims that unnamed students may have incorporated the source material into the
subject's proposal. However, the subject's attorney stiites that he, not the subject, raised this
possibility. OIG finds the explanations from the subject and his attorney contradictory and
lacking in credibility.

        The subject admitted in a memorandum to the Dean to the "unauthorized use of
material", and apologized to the co-PI of the source proposal in his department. Later he
attempted to "withdraw" his memorandum, because he claimed that he had not intended it to be
an admission of plagiarism. The subject continues to deny his initial admission, and denies the
existence of his written apology. Nonetheless, the initial admission and apology are supported
by the documentary evidence. Thus, OIG concludes that a preponderance of the evidence shows
that the subject copied from the source proposal into three proposals of his own without offset
or proper attribution.

       State of Mind

         Transcribing, word for word, a substantial body of text is intrinsically knowing conduct.
I . our view, the act of rearranging and rewriting text as it is entered into a document is such
that it is unlikely that it was done other than knowingly. The proposals show that the subject
took this type of action. He selectively used and rearranged material from the source proposal.
The material he incorporated into the REU proposal differed somewhat from that incorporated
into the RCMS proposals. He mmed the material to tailor it to the type of proposal and to
his institutional environment.

       Moreover, the subject engaged in a pattern of plagiarism. He plagiarkd in three
proposals of two diierent types. The subject copied the same 69 lines into the fmt two
proposals. He used the same lines in the third proposal, with some changes in wording and
order, and in addition incorporated all or part of an additional 27 lines from the source proposal.
Thus, over a period of4our months, the subject copied two somewhat differing bodies of text
from the source proposal into three proposals.

        This evidence of modification and selective use of a substantial amount of copied material
in differentproposals for different purposes makes it very unlikely that the subject incorporated
the material by mistake. Thus, OIG concludes that a preponderance of the evidence supports
a finding that the subject knowingly plagiarized material from the source proposal into three
proposals. NSF defines misconduct in science as, "Fabrication, falsification, plagiarism, or
other serious deviation from accepted practices in proposing, carrying out, or reporting results
from activities funded by NSF . . . ."47 OIG concludes that the subject committed misconduct
in science.

                   CONCLUSION AND RECOMMENDATION
        In deciding what actions are appropriate when misconduct is found, NSF should consider
how serious the misconduct was, whether it was willful, knowing, or grossly negligent, whether
it was an isolated event or part of a pattern, and whether it is relevant only to certain funding
requests or               In this case, the copying was extensive, involving nearly a quarter of
each proposal. The evidence also showsthat the subject edited and rearranged the material so
as to tailor it to the research environment and proposal type. The copying involved material
from all major parts of the body of the source's proposal except the proposed research projects.
The subject incorporated material explaining the overall rationale of the proposed programs and
how they would be set up, including the selection of participants, student activities, project
management, and student participation and follow-through. The subject did not have prior
permission from the original authors to use this material, nor did the subject's proposal contain
an acknowledgment to the .originalauthors.

        OIG does not accept the subject's contention that the copied material was boilerplate
requiring no attribution. Nor does OIG accept the subject's assertion that because the plagiarism
involved no new "scientific ideas, theories, or principles," it was of no concern. The REU
Program Announcement states that,                                                                   -.

       Each proposal should reflect the unique combination of the proposing institution's
       interests and capabilities. . . .p]roposals must present plans that will ensure the
       regular development of student-faculty interaction and student-student
       communication. . . . The overall quality of the student recruitment and selection
       p m s s will be an important element in proposal e~aluation.~~

The Program Announcement also states that, "[tlhe quality of plans for student preparation and
follow-through design& to promote continuation of student interest and involvement in
re~earch"'~is important in evaluating the quality of the proposal. The number and
characteristics of the participating students and the management plan are important aspects of
              -    --




    4745C.F.R.8 689.1(a).

    4845C.F.R. 6 689.2(b).
    49SeeTab T.

    "see Tab T.
                     NATIONAL SCIENCE FOUNDATION
                         4201 WlLSON BOULEVARD
                        ARLINGTON. VlRGlNIA 22230



                                       September 18, 1995




CERTIFIED MAIL-RETURN RECEIPT REOUESTED




Re:   Debarment of Dr. Alade 0. Tokuta
Dear Mr.   I:
On August 7, 1995, the National Science Foundation (NSF) sent you
a Notice of Proposed Debarment in which NSF proposed to debar
your client, Dr. Alade 0. Tokuta, from directly or indirectly
obtaining the benefits of Federal research grants for a period of
one year. The basis for your client's debarment is discussed in
detail in the Notice of Proposed Debarment. NSFfs debarment
action is based on your client's severe misconduct in science.
On August 23, 1995, we received your response to our Notice of
Proposed Debarment. In your letter, you stated that your client
has agreed to accept NSFfs proposed sanctions. Accordingly, your
client is debarred until August 6, 1996. Debarment is effective
throughout the Executive branch of the Federal Government.
Debarment precludes Dr. Tokuta from receiving Federal financial
and non-financial assistance and benefits under nonprocurement
Federal programs and activities unless an agency head or an
authorized designee makes a determination to grant an exception
in accordance with 45 CFR 620.215.
Under NSFfs refilations, your client has 30 days to submit an
appeal of this decision, in writing, to the Director of the
Foundation. 45 CFR 689,8(c) (1)(iii). Any appeal should be
addressed to the Director, National Science Foundation, 4 2 0 1
Wilson Boulevard, Arlington, Virginia, 2 2 2 3 0 . (A copy of the
applicable regulations was enclosed with the previous Notice of
Proposed De&arment. )
I f you have a n y q u e s t i o n s r e g a r d i n g t h e f o r e g o i n g , p l e a s e f e e l
f r e e t o c o n t a c t Lawrence Rudolph, G e n e r a l C o u n s e l , a t ( 7 0 3 ) 3 0 6 -



                                             Sincerely,




                                             ~ n n b
                                                   C. Petersen
                                             Deputy D i r e c t o r
RCMS projects. Thus, contrary to the subject's assertion that the copied material was
boilerplate or unimportant, the components of the source proposal that he appropriated are
critical to the review and evaluation of the proposals he submitted.

       NSF's commitment to proper attribution is evidenced by the statement on current
proposal cover sheets that requires PISto certify that "the text and graphics herein as well as any
accompanying publications or other documents, unless otherwise indicated, are the work of the
signatories or individuals working under their supervision." This certification was added to the
proposal form in October 1992, after the subject's proposal was submitted, but it merely
formalized NSF's existing expectation for submitted proposals. Without applying the accepted
conventions of offset and attribution, copied text in proposals would be considered as originating
with the submitting PI. Failure to provide proper attribution can inappropriately influence a
reviewer's assessment of the submitting PI'S capabilities and the rating of the proposal.

        OIG believes that the extensive appropriation by the subject of material describing the
overall rationale of a program and how it would be carried out is a significant instance of
plagiarism. In OIG's view, a preponderance of the evidence supports the conclusion that the
subject has seriously deviated from accepted practice in the scientific community and committed
misconduct in science in the form of plagiarism. Moreover, we believe that the evidence
supports a finding that the subject acted knowingly. We also believe that the misconduct was
more serious because there was a pattern of plagiarism: the subject plagiarizd in a selective
fashion into three proposals. The offense is compounded by other factors. The subject's
explanation of how he obtained the source material is unpersuasive; he was not candid and
forthright during the institution's inquiry. The subject also refused to cooperate with OIG's
investigation, and he did not respond to three requests for his explanation of what occurred.51
The subject did not respond to OIG's communications until its investigators personally delivered
the investigation report, and followed up with a telephone call. Overall, the subject's acts have
destroyed his credibility and responsibility. The misconduct is therefore relevant to all types of
funding requests or awards.

      Therefore, OIG mcornmends that the Deputy Director of NSF frnd that the subject has
committed misconduct in science, and specifically plagiarism, under NSF's defmition of
misconduct in science and engineering. Given the facts and circumstances of this case, OIG




    ''see Tabs P and Q.
feels that the government's interest will be adequately protected if the following actions are
taken:

(1)        NSF should send a letter of reprimand to tlie subject informing him that he has
           committed misconduct in scien~e.'~

(2)        NSF should debar the subject for one year from being a PI, co-PI, or among the senior
           personnel on any research grant from a federal agency.53

(3)        NSF should inform the subject's new institution that the subject has been debarred, so
           that the institution can comply with the debarment certification on the cover sheet for
           proposals to NSF.

(4)        NSF should require that, for one year after the debarment, if the subject is a principal
           or co-principal investigator on a proposal submitted to NSF, the subject will ensure that
           his department chairperson has signed an assurance stating that, on the basis of the
           Chairperson's reading of the proposal and to the best of the chairperson's knowledge, the
           proposal does not contain any plagkuized material." This will provide the subject with
           educational oversight and training in the preparation of NSF proposals.

(5)        NSF should r e q u k that, for one year after the debarment, if the subject is a principal
           or co-principal investigator on a proposal submitted to NSF, he will certify in writing
           that he has recently reviewed the defmition of misconduct in NSF's Misconduct in
           Science and Engineering Regulation (45 C.F.R. $ 689.1(a)), that the grant application
           is free of any misconduct, and that the grant application has been reviewed as described
           above. s5

(6)        NSF should prohibit the subject from serving as a reviewer, advisor, or consultant during
           the one year debarment peri0das6




      '2This is a Group I action (see 45 C.F.R. 6 689.2(a)(l)(i)).

      53Thisis a Group IKI action (see 45 C.F.R. $ 689.2(a)(3)(ii)).

      %s      is a Group II action (see 45 C.F.R. 6 689.2(a)(3)(iii)).

      "This is a Group I1 action (see 45 C.F.R. 8 689.2(a)(3)(iii)).

      56This is a Group III action (see 45 C.F.R.    5 689.2(a)(3)(iii)).
                                                   19
        The Chairperson's assurance and the PI'S certification will be sent in confidence to the
Assistant Inspector General for Oversight hi NSF's Office of Inspector General, to be placed in
that office's file on this matter.
